      ADVISORY REPORT

  COSTS CLAIMED BY THE STATE
  OF NEW MEXICO, DEPARTMENT
    OF GAME AND FISH, UNDER
   FEDERAL AID GRANTS FROM
   THE U.S. FISH AND WILDLIFE
  SERVICE FROM JULY 1, 1996 TO
           JUNE 30, 1998




AUGUST 2002     Report No. 2002-E-0006
                                                                    X-GR-FWS-0021-2002

             United States Department of the Interior
                       OFFICE OF INSPECTOR GENERAL
                                   Washington, D.C. 20240


                                                                             August 1, 2002


                             ADVISORY REPORT

Memorandum

To:        Director
           U. S. Fish and Wildlife Service

From:      Roger La Rouche
           Assistant Inspector General for Audits

Subject:   Final Advisory Report on Costs Claimed by the State of New Mexico, Department
           of Game and Fish, Under Federal Aid Grants from the U.S. Fish and Wildlife
           Service from July 1, 1996 to June 30, 1998 (No. 2002-E-0006)

                                     Introduction
        This report presents the results of our performance of procedures to review another
audit agency’s work related to costs claimed by the State of New Mexico Department of
Game and Fish (Department) under Federal Aid grants from the U.S. Fish and Wildlife
Service (FWS) for the period July 1, 1996 to June 30, 1998.

Background and Scope

        The Federal Aid in Wildlife Restoration Act, as amended (16 U.S.C. 669) and the
Federal Aid in Sport Fish Restoration Act, as amended (16 U.S.C. 777), (the Acts),
authorize the FWS to provide Federal assistance grants to the states to enhance their sport
fish and wildlife programs. The Acts provide for the FWS to reimburse the states up to
75 percent of all eligible costs incurred under the grants. Additionally, the Acts specify
that state hunting and fishing license revenues cannot be used for any purpose other than
the administration of the state’s fish and game agencies.

        In March 2001, another audit agency prepared a draft report entitled “Audit of New
Mexico Federal Aid Program Grants Awarded by the U.S. Fish and Wildlife Service,
Division of Federal Aid, Fiscal Years 1997 and 1998.” The scope of its audit work, as
stated in the announcement letter to the Department, was to evaluate (1) the adequacy of
the Department’s accounting system and related internal controls; (2) the accuracy and
eligibility of the direct and indirect costs claimed by the Department under the Federal Aid
grant agreements with the FWS; (3) the adequacy and reliability of the Department’s
hunting and fishing license fees collection and disbursement process; and (4) the adequacy
of the Department’s purchasing system and related internal controls. The audit was also to
include an analysis of other issues considered to be sensitive and/or significant to the FWS.
 The audit work at the Department covered claims totaling $17.7 million on FWS grants
that were open during the Department’s fiscal years ending June 30, 1997 and 1998 (see
Appendix 1). The audit agency’s agreement with FWS expired before issuance of its final
report to the State of New Mexico. However, the State was provided an unsigned copy of
the draft report in March 2001.

        From 1996 through September 2001, the audit agency conducted audits of Federal
Aid grants under a reimbursable agreement with the FWS. The FWS did not renew or
extend its agreement with the other audit agency. At the time of expiration, final audit
reports on several uncompleted audits had not been issued and the audits were in various
stages of the audit and reporting processes. The other audit agency indicated in a
September 28, 2001 memorandum that its supervisors had not completed their review of
the New Mexico working papers to ensure that (1) sufficient, competent and relevant
evidence was obtained, (2) evidential matter contained in the working papers adequately
supported the audit findings in the report, and (3) sound auditing techniques and judgment
were used throughout the audit.

        On September 20, 2001, the FWS and the Department of the Interior (DOI) Office
of Inspector General (OIG) entered into an Intra-Departmental Agreement under which
FWS requested the OIG to (1) review the work performed by the audit agency including its
working papers, summaries, and draft reports for these audits and (2) issue reports on the
findings that were supported by the working papers. Accordingly, our review was limited
to performing the procedures set forth in the Agreement and our conclusions presented in
the report are limited to findings substantiated by the working papers. We did not perform
any additional audit work of the Department’s records, and the limited work performed
under these procedures does not constitute an audit by the OIG in accordance with
Generally Accepted Government Auditing Standards.

       Significant findings impacting New Mexico's administration of the Federal Aid
program are presented in the body of this report and other management issues are
presented in Appendix 2. In addition, we have provided in Appendix 3 a list of all findings
included in the March 2001 draft report, along with the results of our corresponding
analysis.




                                           2
                                 Results of Review
   The working papers disclosed the following:

   •   The Department did not report program income totaling $37,132.

   •   The Department did not have sufficient internal controls over assets acquired with
       Federal Aid funds.

A. Program Income

        The working papers demonstrated that the Department received program income
totaling $37,132 (Federal share $27,850) that was not disposed of in accordance with
43 CFR 12.65. The regulation defines program income as “gross income received by the
grantee or sub-grantee directly generated by a grant supported activity, or earned only as a
result of the grant agreement during the grant period,” and requires that “Ordinarily
program income shall be deducted from total allowable costs to determine the net
allowable costs.” However, the Department’s system and related controls for
accumulating, reporting, and distributing restricted fish and wildlife revenues was not
adequate to ensure that program income was properly recorded to the applicable grant.
Specifically, the Department did not credit Grant W-99-D-37 and 38 for income from the
sale of hay from the Bernardo Waterfowl Area. The hay was grown on property that was
purchased with Federal Aid funds and managed under Grants W-99-D-37 and 38. The
Department did not deduct the program income from the costs claimed under applicable
grant segments.

      The audit agency’s draft report recommended that the Department reimburse the
FWS for the Federal share ($27,850) of program income and report all future program
income on the applicable financial status reports.

Department’s Response

        The Department concurred with the finding and stated that when notified of the
issues it made the necessary corrections and developed and implemented procedures to
ensure that such program income is credited and recorded to appropriate grants.

Office of Inspector General Comments

      We consider the Department’s proposed corrective actions sufficient to resolve the
recommendations.




                                           3
Recommendations

We recommend that the FWS:

       1. Ensure that the Department has reimbursed the FWS for the program income
(Federal share $27,850).

       2. Ensure that the Department has implemented adequate controls for the recording
and reporting of program income.

B. Asset Management System

        The working papers showed that the Department’s asset management system and
related controls were not sufficient to ensure that assets purchased with Federal Aid funds
or restricted license revenues were properly controlled or disposed of.

        The working papers disclosed that the Department’s inventory database listing “All
Fixed Assets Greater Than $500 as of March 1999,” included items that are not typically
listed as fixed assets such as “furnace installation,” “architectural,” and “appraisal
services,” thus resulting in an overstatement of inventory value. In addition, the listing had
incorrect locations or did not identify the location for a significant number of fixed assets.
Finally, the official transfer form indicating that the location of the asset had changed was
often not prepared and the inventory database was not updated. Identifying the location of
fixed assets is critical in safeguarding these assets. The working papers also indicated that
the Department did not perform physical inventories to ensure that fixed assets were
independently verified to determine their existence, condition, and location and that an
appropriate property tag was affixed. It was determined during site visits that very few
assets had Department property tags affixed.

Department’s Response

         The Department agreed with these findings, but did not agree that knowing the
location of fixed assets is essential in safeguarding the assets to prevent loss, damage, or
theft, given the overall small size of the Department. In addition, the Department stated
that it is currently implementing a bar code inventory tracking system, all existing fixed
assets have been re-tagged with new bar code tags, and all new fixed assets are assigned a
bar code tag upon purchase. The Department also said that a physical inventory will be
completed every other year as well as an annual inventory by mail that will require
positive written confirmation of fixed asset assignments from each employee or division
chief as appropriate.




                                            4
Office of Inspector General Comments

       The actions identified in the Department’s response appear sufficient to correct the
asset management deficiencies.

Recommendation

       We recommend that FWS ensure the Department has implemented sufficient
controls to ensure that the asset deficiencies have been corrected.

       In accordance with the Departmental Manual (360 DM 5.3), please provide us with
your written comments by November 4, 2002, regarding the issues discussed in this report.
If you have any questions regarding this report, please contact Mr. Gary Dail, Federal
Assistance Audit Coordinator, at (703) 487-8011.

       This advisory report is intended solely for the use of grant officials of the U.S. Fish
and Wildlife Service, and is not intended for, and should not be used by anyone who is not
cognizant of the procedures that were applied to the review of an another audit agency’s
work.

cc:    Regional Director, Region 2
       U.S. Fish and Wildlife Service




                                            5
                                                   APPENDIX 1

  NEW MEXICO DEPARTMENT OF GAME AND FISH
  SCHEDULE OF GRANT COSTS AND UNREPORTED
PROGRAM INCOME FOR FISCAL YEARS 1997 AND 1998


    Grant                                   Unreported
  Agreement   Grant Budget Amount Claimed Program Income

FY 1997
F-60-M-4         $3,007,801        $2,626,355
W-93-R-38         2,245,490         2,151,151
FW-14-C-55        1,088,420           772,107
FW-24-TG-11         886,200           310,136
FW-26-DL-5          761,000           395,089
W-99-D-37           577,000           540,239     $17,466
W-120-S-26          563,983           654,239
W-131-R-5           424,000           365,508
W-104-R-37          409,000           270,275
FW-14-C-56          285,000           200,110
FW-17-RD-24         280,000           303,137

FY 1998
F-60-M-5          3,422,669         3,836,718
W-93-R-39         2,200,530         1,809,040
FW-26-DL-6          959,866           701,050
FW-30-DL-1          763,200           438,887
FW-24-TG-12         694,650           575,606
W-99-D-38           509,500           699,714      19,666
F-57-E-9            474,667           315,088
FW-17-RD-25         361,000           388,677
FW-14-C-57          320,000           152,640
W-104-R-38          282,000           202,958
    Total       $20,515,976       $17,708,724     $37,132




                              6
                                                                            APPENDIX 2


                             MANAGEMENT ISSUES

        The working papers indicated that the Department’s accounting system and related
internal controls in effect during fiscal years 1997 and 1998 were generally adequate for
the accumulation and reporting of costs under Federal Aid grants and that the
Department’s other systems for labor reporting, purchasing, billing and license
certification were generally adequate for Federal Aid participation. However, the working
papers identified a management issue that the New Mexico Department of Game and Fish
and the Fish and Wildlife Service should address.

Monitoring and Reporting Sub-recipient Performance

       The Department needs to improve its monitoring procedures over grants
administered by the State Parks and Recreation Division (SPRD) to ensure that work
performed and costs charged under the grants are appropriate. The Code of Federal
Regulations, 43 CFR 12.80 (a), states that “Grantees must monitor grant and subgrant
supported activities to assure compliance with applicable Federal requirements and that
performance goals are being achieved.” A Joint Powers Agreement between the
Department and the SPRD allows the SPRD to perform work on boat facilities under grant
F-55-DL. The following issues were identified:

   •   The work described on the Department's performance report for segment 12 of the
       grant had not been completed as described and some of the work that was described
       as being completed was not included in the grant agreement work statement.

   •   Some of the performance reports did not contain sufficient or accurate information.
        For example, the report for segment 11 stated that several boating access sites
       were leveled but did not identify the sites, and the report for segment 12 did not
       identify which access roads and campsites had been renovated. Also, the
       performance report for segment 12 stated that lakeside access roads and associated
       campsites were renovated, but no campsites were found during the site visits.
       Furthermore, campsites are unallowable facilities under this segment of the grant.

   •   Lumber and other materials were found at the site although labor or materials for
       campsites are not allowable charges to segments 11 - 13 of the grant. Because the
       SPRD invoices did not specify what materials were used at the site (Lake Heron),
       the auditors could not determine if the grant was mischarged.

       In its response to the report, the Department concurred with the need to improve its
monitoring procedures over SPRD and stated that it had revised the Joint Powers


                                          7
Agreement to address the reported issues. The Department also said that grant leaders
would conduct project site visits prior to reporting on project completion. However, the
Department disagreed that work described in the segment 12 performance report was not
completed as described and stated that the only discrepancy was a reporting error since
work on campsites was not an approved activity under segments 11 or 12. In addition, the
Department stated that the lumber and other materials, although stored at the site for
security reasons, were not purchased with grant funds. The FWS needs to ensure that the
Department has taken sufficient actions to improve its monitoring and reporting of grant
activities.




                                         8
                                                                       APPENDIX 3


           NEW MEXICO DEPARTMENT OF GAME AND FISH
       DISPOSITION OF THE FINDINGS IN THE AUDIT AGENCY’S
          DRAFT REPORT FOR FISCAL YEARS 1997 AND 1998


         Findings Contained in the
         March 2001 Draft Report                     Results of OIG Review


QUANTIFIABLE ISSUES
1. Project Level Accounting              Excluded in this report because the cumulative
                                         transfers among grant projects did not exceed
                                         10 percent of the total grant budget.
2. Program Income                        Included in this report as Finding A, "Program
                                         Income"


COMPLIANCE ISSUES
1. Accounting System                     Noted in the Management Issues section of the
                                         report as a positive finding.
2. Labor Reporting System                Noted in the Management Issues section of the
                                         report as a positive finding.
3. Source and Use of Funds               Excluded in this report because the finding was
                                         not supported by the working papers.
4. Asset Management System               Included in this report as Finding B, “Asset
                                         Management System”
5. Purchasing System                     Noted in the Management Issues section of the
                                         report as a positive finding.
6. Billing System                        Noted in the Management Issues section of the
                                         report as a positive finding.
7. License Certification                 Noted in the Management Issues section of the
                                         report as a positive finding.


OTHER MATTERS
1. Sub-recipient Monitoring              Included as a management issue in Appendix 2




                                     9
                             How to Report
                 Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit allegations
of any inefficient and wasteful practices, fraud, and abuse related to Departmental or Insular
Area programs and operations. You can report allegations to us by:
              Mail:          U.S. Department of the Interior
                             Office of Inspector General
                             Mail Stop 5341-MIB
                             1849 C Street, NW
                             Washington, DC 20240
              Phone:         24-Hour Toll Free              800-424-5081
                             Washington Metro Area          202-208-5300
                             Hearing Impaired (TTY)         202-208-2420
                             Fax                            202-208-6081
                             Caribbean Region               340-774-8300
                             Northern Pacific Region        671-647-6051
              Internet:      www.oig.doi.gov/hotline_form.html




                            U.S. Department of the Interior
                              Office of Inspector General
                                  1849 C Street, NW
                                Washington, DC 20240
                                        www.doi.gov
                                       www.oig.doi.gov
